SCHONBRUN SEPLOW
HARRIS HOFFMAN & ZELDES LLP
Benjamin Schonbrun
Michael D. Seplow
Wilmer J. Harris
Paul L. Hoffman
Helen Zeldes
Aidan C. McGlaze
John C. Washington
Kristina A. Harootun
Sarah L. Dawley
Benjamin Travis

200 Pier Ave. Suite 226
Hermosa Beach, CA 90054
(310) 717-7373 (310) 399-7040 (fax)
hoffpaul@aol.com

Catherine E Sweetser
Gary Bostwick
Erwin Chemerinsky*
*Illinois and Dist.
Columbia
South Pasadena Office
715 Fremont Avenue
Suite A
South Pasadena, CA 91030
(626) 441-4129
(626) 283-5770 (fax)

May 21, 2020

West LA Office
11543 W. Olympic Blvd.
Los Angeles, CA 90064
Main: (310) 396-0731

VIA ELECTRONIC FILING
Scott S. Harris
Clerk,
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Higginson v. Becerra, Case No. 19-1199 – Withdrawal of Amicus Brief
Dear Mr. Harris:
This letter is written on behalf of Janet Goodson, Linda Draper and Art Hatley, all
elected members of the Oroville City Council, to inform the Court that the Amicus
Curiae brief filed on or about May 7, 2020, purportedly on behalf of the City of
Oroville, was not properly authorized under California law.
Under California law, a city’s decision “to enter as an amicus curiae in any form of
litigation” may only be made by a majority vote of the city council, and must be
reported publicly following the action by the city council. (See Cal. Gov’t Code §
54957.1, subd. (a)(2)). In this case, the Oroville City Council never discussed filing
this amicus brief or taking any position in Higginson v. Becerra. Rather, it appears
that the unelected City Attorney chose to sign on to the amicus curiae brief without
consulting or gaining the approval of the City Council, as required under California
law.

May 21, 2020
Page 2

We believe the California Voting Rights Act is an entirely constitutional exercise of
the State’s authority to direct the method of election to be utilized by the State’s
political subdivisions. The amicus curiae brief purportedly filed on behalf of the
City of Oroville does not reflect the views of our City in our view. We find the
arguments advanced in the amicus curiae brief to be misguided and unacceptable.
Given the unauthorized submission of this brief on behalf of our City, we ask that
the City of Oroville be removed as an amicus curiae in this case.

Very truly yours,

s/ Paul L. Hoffman
Paul Hoffman
On behalf of Janet Goodson,
Linda Draper and Art Hadley

CERTIFICATE OF SERVICE
I hereby certify that on May 21, 2020, I electronically filed the foregoing
document Higginson v. Becerra, Case No. 19-1199 – Withdrawal of Amicus
Brief with the Clerk of the Court for the Supreme Court of the United States by
using the Supreme Court’s electronic filing system.
I hereby certify that I served the foregoing document by First-Class Mail,
postage prepaid, to the following participants:
Marguerite Mary Leon
Christopher E. Skinnell
Nielsen Merksamer
Parrinello Gross & Leoni LLP
2350 Kerner Blvd., Ste. 250
San Rafael, CA 94901
Phone: (415) 389-6800
mleoni@nmgovlaw.com
William S. Consovoy
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
CHRISTOPHER M. KIESER
JOSHUA P. THOMPSON
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
ckieser@pacificlegal.org

Bradley A Benbrook
STEPHEN M. DUVERNAY
BENBROOK LAW GROUP, PC
400 Capitol Mall, Ste. 2530
Sacramento, CA 95814
(916) 447-4900
brad@benbrooklawgroup.co
Thomas A. Saenz
Mexican American Legal Defense
and Educational Fund
634 S. Spring St., Ste. 1100
Los Angeles, CA 90014
(213) 629-2512
tsaenz@maldef.org
Alan B. Fenstermacher
Rutan & Tucker LLP
611 Anton Blvd., 14th Floor
Costa Mesa, CA 92626
(714)641-5100
afenstermacher@rutan.com

Joshua A. Klein
Office of the Solicitor General,
California Department of Justice
1515 Clay Street, Suite 2000
Oakland, CA 94612-1413
(510)-879-0756
Joshua.klein@doj.ca.gov

Date: May 21, 2020

By: /s/ William Hoffman
William Hoffman
Paralegal
SCHONBRUN SEPLOW
HARRIS & HOFFMAN LLP

